TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                   Inspection of the Employee Pre-Screening
                                    Process



                                        February 28, 2012

                           Reference Number: 2012-IE-R003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 28, 2012



 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Inspection of the Employee Pre-Screening
                             Process (#IE-11-005)

 This report presents the results of our inspection to determine if the Internal Revenue Service
 (IRS) properly and timely pre-screens applicants before they are hired.

 Synopsis
 In Fiscal Year 2010, taxpayers filed over 230 million tax returns that contained sensitive
 financial information. Because many IRS employees must have access to sensitive taxpayer
 information to administer the Nation’s tax system, the IRS must be particularly cognizant of
 hiring only those applicants who hold themselves to the highest standards of integrity. The IRS
 uses several controls to deter and detect the abuse of sensitive information. Pre-screening
 applicants and conducting background investigations on them are the initial steps in the process
 of ensuring that the IRS meets the highest standards of honesty, integrity, and security.
 The IRS has implemented controls designed to ensure that applicants pursuing permanent or
 temporary employment with the IRS are suitable, and background investigation requests are
 properly initiated. However, our review at four of nine Employment Operations branch offices
 revealed that nearly 77 percent of the cases reviewed (507 of 662 cases) did not have sufficient
 documentation that would allow us to verify that the Employment Operations offices completed
 all of the required pre-screening steps before the employee reported for duty. The managers
 located in the Employment, Talent and Security (ETS) Division, who have oversight of
 Employment Operations, noted that the documentation that was not included in the employees’
 case files could be obtained from other sources as needed. However, if the documentation is not
 located in the case file, an employee would have to repeat steps originally completed by another
 employee to provide support for managers or third parties responsible for oversight. Additionally,
                        Inspection of the Employee Pre-Screening Process




repeating the steps after the employee reports for duty may not provide evidence that the pre-
screening steps were completed before the employee’s enter-on-duty date.

Recommendation
We recommend that the Human Capital Officer develop requirements and retention policies to
ensure that pre-screening actions are consistently completed and fully documented.

Management’s Response:

Management believes they can fully implement the recommendation and plans to primarily use
electronic files (the CareerConnector Companion and the Automated Background Investigation
System) to record and verify the completion of pre-screening steps. Additionally, management
issued guidance related to record retention policies for pre-screening actions and plans to
enhance the CareerConnector Companion to improve record-keeping and monitoring
capabilities. Management’s complete response to the draft report is included in Appendix IV.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                 2
                                 Inspection of the Employee Pre-Screening Process




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Controls Designed to Ensure That Applicants Are Suitable
          for Employment Are in Place ....................................................................... Page 3
          Employment Operations Offices Have Inconsistent Record
          Retention Practices for Their Pre-Screening Process ................................... Page 4
                    Recommendation 1:.......................................................... Page 9

          Background Investigations Were Usually Initiated Timely........................ Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Management’s Response to the Draft Report ...................... Page 14
         Inspection of the Employee Pre-Screening Process




                  Abbreviations

ALERTS      Automated Labor and Employee Relations Tracking System
EO          Employment Operations
EOD         Enter-on-duty
ETS         Employment, Talent, and Security
FBI         Federal Bureau of Investigation
HCO         Human Capital Office
IRM         Internal Revenue Manual
IRS         Internal Revenue Service
OPM         Office of Personnel Management
TIGTA       Treasury Inspector General for Tax Administration
                          Inspection of the Employee Pre-Screening Process




                                        Background

In Fiscal Year 2010, taxpayers filed over 230 million tax returns that contained sensitive
financial information. Because many IRS employees must have access to sensitive taxpayer
information to administer the Nation’s tax system, the IRS must be particularly cognizant of
hiring only those applicants who hold themselves to the highest standards of integrity. The IRS
uses several controls to deter and detect the abuse of sensitive information. Pre-screening
applicants and conducting background investigations are the initial steps in the process of
ensuring that the IRS meets the highest standards of honesty, integrity, and security.
The IRS must pre-screen all applicants before those applicants are allowed to report for duty.
During pre-screening process, the IRS performs the following checks:
     Fingerprint Check: Review of Federal Bureau of Investigation (FBI) fingerprint results,
      along with Optional Form 306, Declaration for Federal Employment, is conducted to
      identify possible suitability issues and mitigate, if appropriate, in the pre-employment
      phase.
     Tax Compliance Check: All applicants are subject to a tax check of the last three tax years.
      If found non-compliant, they are given 10 days to become compliant in order to be
      considered for the position for which they have applied.
     Automated Labor and Employee Relations Tracking System (ALERTS) Checks: Checks
      are conducted on all applicants to determine if there are any previous termination actions
      or other actionable issues that would preclude rehiring an individual (e.g., if they were
      previously an IRS employee).
     Citizenship Verification: Review of documentation to determine whether the applicants are
      United States citizens.
     Selective Service Registration Verification: Verifies that male applicants born after
      December 31, 1959, are registered with the Selective Service or have obtained waivers of
      Selective Service registration.
     E-Verify: Checks are conducted on applicants to verify their eligibility to legally work in
      the United States (e.g., a United States citizen or foreign citizen with the necessary
      authorization).
The goal of the pre-screening process is to determine the applicants’ initial suitability/eligibility as
quickly as possible to allow them to report for duty when needed. For those applicants hired for
180 days or more, the IRS initiates a more thorough background investigation, as required by

                                                                                                  Page 1
                           Inspection of the Employee Pre-Screening Process




Executive Order 10450, Security Requirements for Government Employment;1 Homeland Security
Presidential Directive 12 (HSPD-12);2 and, Treasury Security Manual, TDP 15-71.3
The Office of Personnel Management’s (OPM) Federal and contract investigators conduct most of
the IRS’s investigations. IRS adjudicators use OPM reports to make clearance eligibility
decisions. The scope of the OPM investigation varies based on the risks associated with the
position applied for by the applicant. Positions classified as low-risk require a National Agency
Check and Inquiries; positions classified as moderate-risk require a limited background
investigation; and positions classified as high-risk require a full background investigation.
The Human Capital Officer, head of the Human Capital Office (HCO) organization, has the overall
responsibility for pre-screening and background investigations. Within the HCO, the Employment,
Talent and Security (ETS) Division is the program owner. Employment Operations (EO), which is
part of the ETS Division, has nine offices throughout the country and is responsible for conducting
preliminary checks on all IRS applicants to determine the initial employment suitability. EO
submits background investigation requests to OPM. Personnel Security, also within the ETS
Division, is responsible for ensuring background investigations are completed and issues are
properly adjudicated.
This review was performed at the IRS’s National Headquarters in Washington, D.C., and at the
Austin, Texas; Brookhaven, New York; Fresno, California; and Philadelphia, Pennsylvania
campuses during the period of August 2011 through October 2011. We conducted this
inspection in accordance with the Council of the Inspectors General for Integrity and Efficiency
Quality Standards for Inspections. Detailed information on our objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
  Executive Order 10450, Security Requirements for Government Employees, April 27, 1953.
2
  Homeland Security Presidential Directive 12, Policy for a Common Identification Standard for Federal Employees
and Contractors.
3
  Treasury Security Manual, TDP 15-71, Chapter 1, Section 4.
                                                                                                         Page 2
                              Inspection of the Employee Pre-Screening Process




                                      Results of Review

Controls Designed to Ensure That Applicants Are Suitable for
Employment Are in Place
The IRS has implemented controls designed to ensure that applicants pursuing permanent or
temporary employment with the IRS are suitable, and background investigation requests are
properly initiated when warranted. The IRS established specific pre-screening policies and
clearly defined program and stakeholder roles and responsibilities. The pre-screening process
allows the IRS to determine applicants’ initial suitability. Applicants will be determined
“suitable” once they have passed the following pre-screening steps: fingerprint check, tax check,
ALERTS check, citizenship verification, Selective Service registration verification, and E-
Verify. These steps allow EO staff to consistently verify that applicants meet not only security
requirements but also Federal Government employment conditions.
According to the Internal Revenue Manual (IRM), the IRS’s primary official source of
instructions to staff relating to the organization, administration and operations, an OPM
background investigation must be initiated for all new IRS employees hired for over 180 days.4
The IRS must determine the minimum investigative requirements for each employee based on
the suitability position risk level, which must be determined in accordance with the duties and
responsibilities of the position. Table 1 documents the suitability position risk levels and the
corresponding minimum investigative requirements.
            Table 1: Suitability Position Risk Levels and Minimum Investigative
                                        Requirements5
         Suitability Position Risk Level              Minimum Investigative Requirements

                                  Low-risk   National Agency Check and Inquiries

                                             Minimum Background Investigation/Limited Background
                            Moderate-risk
                                             Investigation

                                 High-risk   Background Investigation
        Source: Summary based on information included in IRM 10.23.3.4.




4
    IRM 6.671.1.5 (July 1, 2002).
5
    IRM 10.23.3.4 (April 17, 2008).
                                                                                                   Page 3
                              Inspection of the Employee Pre-Screening Process




Employment Operations Offices Have Inconsistent Record Retention
Practices for Their Pre-Screening Process
We selected a statistical sample of 662 IRS applicants and reviewed the case files for
documentation (in paper or electronic form) to verify that EO offices completed all pre-screening
steps before the applicants’ enter-on-duty (EOD) date.6 Nearly 77 percent of the cases that we
reviewed (507 of 662 cases) did not have sufficient documentation that could be used to verify
the EO offices completed all pre-screening steps before the EOD date. This lack of supporting
documentation in the case file does not indicate that EO employees failed to complete pre-
screening steps. Likewise, it does not indicate that the IRS hired applicants who were not
suitable for employment. However, we could not determine that EO employees completed the
pre-screening steps before the applicant’s EOD date in cases that lacked supporting
documentation. Table 2 illustrates the inconsistent levels of supporting documentation for each
pre-screening step by location.
                   Table 2: Percentage of Supporting Documentation Found

          Pre-screening Step                 Austin        Brookhaven          Fresno        Philadelphia


    Fingerprint Check                        100%              95%               24%              28%
    Adjudication Related to
                                              18%              25%               24%              29%
    Unfavorable Fingerprint Results
    Tax Check                                100%              97%               78%              97%
    ALERTS                                    99%              93%               88%              100%
    Citizenship Check                         35%              90%              100%              78%
    Selective Service                         92%              100%              95%              100%
    E-Verify                                  91%              84%               96%              83%
    Source: Results from Treasury Inspector General for Tax Administration (TIGTA) Case Review.

According to the Standards for Internal Control in the Federal Government,7 all transactions and
other significant events need to be clearly documented, and the documentation should be
accurate and readily available for examination. ETS Division management stated that EO
employees and managers could obtain source documentation for each pre-screening step from
other sources. Therefore, it is not necessary to maintain supporting documentation in the case
files or other files maintained by EO. For example:


6
    The day the applicant first reports for work is the EOD.
7
    General Accounting Office, Standards for Internal Control in the Federal Government, 1999.
                                                                                                         Page 4
                             Inspection of the Employee Pre-Screening Process




         Evidence that an applicant is registered with Selective Service could be obtained from the
          Selective Service System website (www.sss.gov);
         Evidence that an applicant who was previously employed by the IRS did not have
          conduct or performance issues that would prohibit re-employment with IRS could be
          obtained from ALERTS; and
         Evidence that an applicant does not have a criminal history that would prohibit
          employment with the IRS could be obtained from OPM.
However, providing supporting documentation weeks or months after the applicants are hired
would not provide assurance that the pre-screening steps were completed before the applicants’
EOD dates.
EO and ETS Division managers stated that files for each IRS applicant are reviewed during
Employment Quality Reviews, and that additional post-EOD sample based periodic Delegated
Examining Unit reviews, and Annual Self-Audits provide assurance that pre-screening checks
were consistently and properly completed. While our on-site inspections did not include an
assessment of these reviews, we did not find any notations in the case files we examined that
indicated management reviews were completed to specifically ensure that all pre-screening steps
were completed. Furthermore, the person reviewing the cases files would have to duplicate work
previously performed to verify that the person hired did not have eligibility or suitability issues
that could prohibit employment with the IRS.
ETS Division management noted there are no guidelines that require EO to maintain supporting
documentation related to these pre-screening steps. Based on our review of various IRM
sections, OPM guidance and interviews with employees in the ETS Division and EO, we agree
with this conclusion, with the exception of fingerprint checks that require adjudication. This
does not, however, prevent the ETS Division from developing retention policies specifically
related to pre-screening steps. We found that each EO office had its own record retention
practices for pre-screening steps, which contributed to the variations in the level of supporting
documentation at each location.
Fingerprint Checks and Adjudication
The IRS must fingerprint all applicants and submit the fingerprints to the OPM. The OPM
conducts a search of the FBI criminal history records for a fee, and returns the fingerprint results
for each applicant to the IRS.8 EO employees confirm favorable fingerprint results and must
adjudicate unfavorable fingerprint results to determine whether the applicants are suitable for the
positions for which they are being considered. In any case where the OPM identifies a suitability




8
    IRM 6.731.1.8.4 (November 3, 2009).
                                                                                              Page 5
                             Inspection of the Employee Pre-Screening Process




or security issue for an applicant, the IRS must maintain all documentation in accordance with
OPM guidelines.9
In order to verify that the IRS obtained and reviewed fingerprint results and adjudicated any
suitability and security issues before the EOD date, we requested the following information:
         The criminal investigation reports dated on or before the EOD dates for 662 applicants, and
         Evidence that the IRS adjudicated the suitability and security issues reported for
          70 applicants included in our sample.
Of the 662 cases reviewed, 252 cases (38 percent) did not have the necessary documentation that
we requested to verify that the IRS received and reviewed the results of fingerprint checks before
each applicant’s EOD date. Additionally, the fingerprint results for 70 of 662 applicants
included in our sample contained unfavorable information (suitability issues) that required
adjudication by IRS officials. Approximately 79 percent of the sample items that required
adjudication (55 of 70 cases) did not have documentation to support the basis for the
adjudication decision and the rationale for granting employment suitability to those applicants.
Table 3 summarizes the results of our testing related to fingerprint checks and the adjudication of
unfavorable results.
               Table 3: Availability of Documentation for Fingerprint Checks
                                      and Adjudications


                                        No Support for      Cases with           Lack of
                            Sample       Fingerprint        Unfavorable        Adjudication
             Location                      Checks                                Support
                             Size                           Fingerprint
                                                              Results
                                       Count     Percent                     Count     Percent
           Austin            174          0         0%          34             28        82%
           Brookhaven        158          8         5%          12              9        75%
           Fresno            172        131         76%         17             13        76%
           Philadelphia      158        113         72%          7              5        71%

                    Total    662        252         38%         70             55        79%
          Source: Results from TIGTA Case Review.

The table above illustrates the inconsistent documentation retention procedures followed by the
EO offices we reviewed. EO employees in the Austin and Brookhaven offices maintained
fingerprint results in 100 percent and 95 percent of the cases, respectively. Whereas, the EO

9
    OPM Suitability Processing Handbook (September 2008).
                                                                                                 Page 6
                        Inspection of the Employee Pre-Screening Process




employees in the Fresno and Philadelphia offices maintained fingerprint results in 76 percent and
72 percent of the cases, respectively. EO employees in the Fresno and Philadelphia offices
initially stated they routinely destroy the fingerprint results and the associated adjudication
actions in all cases where full background investigations are completed for the employees.
However, ETS Division managers we interviewed stated the IRS does not have such a policy.
Selective Service Checks
Selective Service is required only for male applicants born after December 31, 1959. Of the
662 cases reviewed, 206 applicants required the Selective Service check. We requested
documentation to verify that EO employees completed the Selective Service check before the
applicant’s EOD date. To verify the check was completed before the EOD date, EO employees
normally provided a screen print from the Selective Service System website that was obtained
when the check was performed. We also accepted Form 13294, Applicant’s Statement for
Selective Service Registration Status, or other documentation as support in cases where there was
evidence that an EO employee verified the Selective Service status of the applicant before the
EOD date.
Six of the 206 cases that we reviewed did not have documentation requested to show that this
check was completed before the EOD date (see Table 4).
                       Table 4: Availability of Documentation for
                                Selective Service Check

                                     Cases Requiring      Cases with a Lack
                       Location         Selective         of Documentation
                                     Service Checks
                                                           Count    Percent
                      Austin                52                 4      8%
                      Brookhaven            52                 0      0%
                      Fresno                41                 2      5%
                      Philadelphia          61                 0      0%
                         Total              206                6      3%
                     Source: Results from TIGTA Case Review.

ALERTS Checks
All offices that administer external hiring must conduct a mandatory ALERTS check on all
qualified external applicants. The IRS searches for records in ALERTS to determine whether the
applicant had a conduct or performance case within the last six years that would classify the
applicant as unsuitable.



                                                                                           Page 7
                        Inspection of the Employee Pre-Screening Process




The records of the ALERTS check actions taken by the EO branch offices are not maintained in
any systematic method that would allow for easy retrieval and examination. Typically, EO
employees compile lists of the Social Security Numbers of all applicants without names, and
send these lists to the Headquarters Labor Relations Office by e-mail for matching against the
Labor Relations database. Some of these ALERTS lists were electronically named based on the
job announcement number, while other lists were named by the dates when the lists were
compiled. In addition, the majority of these lists are stored in the e-mail boxes or computers of
the individual staff members who compiled the lists. There was no simple way to retrieve the
ALERTS check action by the specific names and Social Security Numbers included in our
sample. Due to the labor intensive and time consuming process of finding and retrieving this
information, we did not verify ALERTS check for the selected sample of 662 cases. Instead, we
randomly selected 120 cases (30 from each location) for the ALERTS verification. We found
that the IRS could not provide documentation we requested to verify that ALERTS checks were
completed for about 28 percent of the cases reviewed (33 of 120 cases). Table 5 summarizes the
results of testing related to ALERTS checks.
                       Table 5: Availability of Documentation for
                                   ALERTS Checks

                                                          Missing ALERTS
                        Location      Sample Size              Check

                                                         Count     Percent
                     Austin                 30                2      7%
                     Brookhaven             30                11    37%
                     Fresno                 30                20    67%

                     Philadelphia           30                0      0%

                              Total        120                33    28%

                    Source: Results from TIGTA Case Review.

Tax Check, Citizenship, and E-Verify
The IRS requires a tax compliance check, U.S. citizenship check, and E-verify check for all
employees. We accepted the following types of documentation as evidence that the pre-
screening steps were completed before the EOD date.
     Tax Compliance Check: Completed Form 13362, Consent to Disclosure of Return
      Information, dated on or before the EOD date, and evidence that the applicant resolved
      any open issues.
     Citizenship Check: Information listed on the Form I-9, Employment Eligibility
                                                                                           Page 8
                           Inspection of the Employee Pre-Screening Process




        Verification, OPM Case Closing Transmittal (FBI fingerprint check), or a dated screen
        print from the E-Verify website that documents the applicant is a U.S. citizen.
     E-Verify: A dated screen print from the E-Verify website or written evidence of the E-
      Verify action that documents the applicant is eligible to legally work in the United States
      (e.g., a United States citizen or foreign citizens with the necessary authorization).
Table 6 summarizes the results of testing related to these pre-screening steps.
                Table 6: Availability of Documentation for Tax Checks,
                           Citizenship Check and E-Verify
                                                       Missing Support For
              Location       Sample Size                   Citizenship
                                             Tax Check                       E-Verify
                                                              Check
            Austin               174              0            113                16
            Brookhaven           158              4             16                25
            Fresno               172             38             0                 7
            Philadelphia         158              5             35                27
                Total             662             47           164                75
            Source: Results from TIGTA Case Review.

Nearly 65 percent of the cases in the Austin EO office did not have documentation related to
citizenship checks. Austin EO employees informed us that they do not routinely maintain copies
of the documents used to check citizenship because they send such documentation to the
St. Louis, Missouri office for inclusion in the employees’ official personnel folders.
Recommendation
Recommendation 1: We recommend that the Human Capital Officer develop requirements
and retention policies to ensure that pre-screening actions are consistently completed and fully
documented.

       Management’s Response: Management believes they can fully implement the
       recommendation, and plans to primarily use electronic files (CareerConnector
       Companion and the Automated Background Investigation System) to record and verify
       the completion of pre-screening steps. Additionally, management issued guidance related
       to record retention policies for pre-screening actions and plans to enhance the
       CareerConnector Companion to improve record-keeping and monitoring capabilities.




                                                                                            Page 9
                             Inspection of the Employee Pre-Screening Process




Background Investigations Were Usually Initiated Timely
For positions that last more than 180 days, the IRS established a standard that background
investigations be initiated at least five days before the new employee’s EOD date. If the
background investigations are not completed by the EOD date, interim credentials can be issued
and the new employees can report for duty based on the FBI fingerprint check.10 However, due
to a number of employees not showing up for first day’s orientation or declining jobs at the last
minute, EO offices sometimes do not initiate the background investigation requests until the
employee reports for duty.
For the 387 applicants whose positions were expected to last more than 180 days, the EO
initiated the appropriate type of investigations. In 93.5 percent of the cases, the appropriate type
of investigation was requested before or on the EOD date. However, we found that EO met the
requirement to initiate the investigations at least five days before the EOD date in 69 percent of
the cases (267 of 387). In addition, 24.5 percent (95 of 387 investigations) were initiated
between four days before the EOD date and the actual EOD date. We found some indication that
the required FBI fingerprint checks were completed for all 387 employees before the EOD dates.




10
     IRS HSPD-12 PIV I Procedures Manual Version 1.0 (October 27, 2005).
                                                                                            Page 10
                             Inspection of the Employee Pre-Screening Process




                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine if the IRS properly and timely pre-screens employees
before they are hired. To accomplish this objective TIGTA:
I.       Determined whether adequate controls are in place to ensure that employees are properly
         and timely pre-screened.
         A. Interviewed the HCO key personnel to identify the procedures required for processing
            new hires and the criteria required to determine suitability of an individual for
            employment.
         B. Reviewed the following guidelines to determine whether adequate policies and
            procedures are in place: the IRM1; the OPM’s Suitability Guidelines2 for employment
            determination criteria and adjudication factors; Executive Order 10450, Security
            Requirements for Government Employment;3 Homeland Security Presidential
            Directive 12 (HSPD-12);4 and Treasury Department Manual, TDP 15-715
            requirements on Federal employees screening.
II.      Conducted inspections at four EO offices and verified whether the pre-screening checks
         were completed and background investigations were initiated when warranted, for a
         sample of 662 applicants. This sample was statistically selected at each location selected
         for testing based on a 95 percent confidence level and confidence interval (precision) of
         plus or minus two. Our sample sizes are follows: Austin – 174; Brookhaven – 158;
         Fresno – 172; and, Philadelphia – 158.




1
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
2
  OPM Suitability Processing Handbook (September 2008).
3
  Executive Order 10450, Security Requirements for Government Employees, April 27, 1953.
4
  Homeland Security Presidential Directive 12, Policy for a Common Identification Standard for Federal Employees
and Contractors.
5
  Treasury Security Manual, TDP 15-71, Chapter 1, Section 4.
                                                                                                               Page 11
                      Inspection of the Employee Pre-Screening Process




                                                                 Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
James A. Douglas, Supervisory Evaluator
Jacqueline Nguyen, Lead Auditor
John DaCruz, Program Analyst




                                                                         Page 12
                      Inspection of the Employee Pre-Screening Process




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Human Capital Officer HCO
Director, Employment, Talent and Security OS:HC:ETS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: IRS Human Capital Officer OS:HC




                                                                         Page 13
        Inspection of the Employee Pre-Screening Process




                                                  Appendix IV

Management’s Response to the Draft Report




                                                           Page 14
Inspection of the Employee Pre-Screening Process




                                                   Page 15
